              Office of Inspector General




          Semiannual Report to Congress
                  October 1, 2012 - March 31, 2013




FCC OIG - Semiannual Report to Congress   October 1, 2012 - March 31, 2013
     The Federal Communications Commission




                                    (left to right)
 Commissioner Jessica Rosenworcel, Commissioner Robert M.
 McDowell, Chairman Julius Genachowski, Commissioner Mignon
 Clyburn and Commissioner Ajit Pai.




FCC OIG - Semiannual Report to Congress   2           October 1, 2012 - March 31, 2013
                                    COVER MEMORANDUM

   DATE:              March 31, 2013

   TO:                Chairman, Federal Communications Commission
                      Commissioner Robert McDowell
                      Commissioner Mignon Clyburn
                      Commissioner Jessica Rosenworcel
                      Commissioner Ajit Pai

   FROM:              Inspector General

   SUBJECT:           Semiannual Report to Congress


   In accordance with Section 5 of the Inspector General Act, as amended, 5 U.S.C. App. 3 §
   5, I have attached my report summarizing the activities and accomplishments of the Office
   of the Inspector General ("OIG") during the six-month period ending March 31, 2013. In
   accordance with Section 5(b) of that Act, it would be appreciated if this report, along with
   any associated report that you prepare as Chairman of the Federal Communications
   Commission ("FCC"), were forwarded to the appropriate Congressional oversight
   committees within 30 days of your receipt of this report.

   This report describes audits that are in process, as well as those that have been completed
   during the preceding six months. OIG investigative personnel continued to address issues
   referred to, or initiated by, this office. Where appropriate, investigative and audit reports
   have been forwarded to the Commission's management for action.

   This office remains committed to maintaining the highest possible standards of
   professionalism and quality in its audits, investigations, inspections and consultations and
   we welcome any comments or suggestions that you might have. Please let me know if you
   have any questions or comments.




                                                       David L. Hunt
                                                       Inspector General
   Enclosure




FCC OIG - Semiannual Report to Congress          3              October 1, 2012 - March 31, 2013
                                               TABLE OF CONTENTS
    INTRODUCTION......................................................................................................5
    OFFICE OF MANAGEMENT...................................................................................6
      Office Staffing........................................................................................................6
      Information Technology (“IT”) Initiatives................................................................7
      Internship Program..............................................................................................11
      Legislative and Policy Matters......... ....................................................................11
    OFFICE OF AUDITS..............................................................................................13
      Operations, Financial, and Information Technology Division..............................13
         Completed Audits and Other Projects..............................................................13
         In-Process Audits and Other Projects..............................................................17
      Universal Service Fund Oversight Division.........................................................21
         Completed Audits and Other Projects..............................................................23
         In-Process Audits and Other Projects..............................................................23
      Special Projects Division.....................................................................................25
         Completed Projects..........................................................................................25
         In-Process Projects..........................................................................................27
    OFFICE OF INVESTIGATIONS.............................................................................29
      Activity During This Period..................................................................................29
         Statistics...........................................................................................................29
         Significant Activities..........................................................................................30
      Internal Affairs.....................................................................................................33
      Office of Inspector General Hotline.....................................................................37
    REPORTING REQUIREMENTS............................................................................36
    APPENDIX.............................................................................................................39




FCC OIG - Semiannual Report to Congress                              4                      October 1, 2012 - March 31, 2013
                                        INTRODUCTION

  The Federal Communications Commission ("FCC" or “the Commission”) is an independent
  regulatory agency, established by Congress to regulate interstate and foreign
  communications by radio, television, wire, satellite and cable. The FCC’s jurisdiction
  covers the fifty states, the District of Columbia, the Commonwealth of Puerto Rico and all
  United States Territories.

  The FCC consists of a Chairman and four Commissioners, who are appointed by the
  President and confirmed by the United States Senate. Julius Genachowski serves as
  Chairman. Robert M. McDowell, Mignon Clyburn, Jessica Rosenworcel and Ajit Pai serve
  as Commissioners. Most of the FCC's employees are located in Washington, D.C. at the
  Portals II building, which is located at 445 12th St., S.W., Washington, District of Columbia
  (“DC”). Field offices and resident agents are located throughout the United States.

  The Office of Inspector General ("OIG" or “Office”) is dedicated to ensuring compliance with
  the requirements of the Inspector General Act and assisting the Chairman in his continuing
  efforts to improve the effectiveness and efficiency of the Commission. In accordance with
  the Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010, the Inspector
  General (“IG”), David L. Hunt, reports directly to the Head of the Agency. Commission
  management matters are coordinated with the Chairman’s office. The IG's staff consists of
  attorneys, auditors, economists, investigators, management specialists and support
  personnel. Principal assistants to the IG are: Thomas C. Cline, Deputy Inspector General
  (“DIG”); Gerald Grahe, Assistant Inspector General ("AIG") for Audits; Harold F.
  Shrewsberry, AIG for Management; Jay C. Keithley, AIG for Investigations and Counsel to
  the IG; Kathleen O’Reilly, Special Counsel on the Universal Service Fund and Jon R.
  Stover, Senior Legal Advisor.

  This semiannual report includes the major accomplishments and activities of the OIG from
  October 1, 2012 through March 31, 2013, as well as information on the IG’s goals and
  future plans.




FCC OIG - Semiannual Report to Congress           5              October 1, 2012 - March 31, 2013
                                 OFFICE OF MANAGEMENT
   OFFICE OF MANAGEMENT
    Office Staffing

   OIG is comprised of 28 Full Time Equivalent (“FTE”) and nine Not to Exceed (“NTE”) term
   appointed professionals, and six FTE and one NTE support personnel. The staffing needs
   of this office have been described in the last several Semiannual Reports. Several
   activities related to staffing, as well as our own plans for the organization of the Office, have
   occurred in this reporting period.

   The OIG operated under a Continuing Resolution for the first two quarters of FY 2013 and
   is operating under a sequestration the last two quarters of FY 2013. These budget
   constraints have not significantly impacted the OIG mission due to prior planning. The IG
   continues hiring additional staff to meet ever demanding operational requirements by
   reducing budget funds in other areas like contracting, travel and training.

   The FCC OIG budget is separate from the agency. This provides the Inspector General the
   latitude to move funds within the budget while maintaining OIG independence to meet
   specific and routine mission objectives. The OIG controls funds allocated for compensation
   and benefits.

   Now that OIG has a separate budget allocation rather than being subsumed as a
   consolidate budget with FCC budget, OIG is instituting procedures to ensure we protect the
   resources entrusted to us. Our hiring plan expands our resources and staffing and will
   greatly improve our capacity to meet the expectations of the FCC, Congress and the public.
   With this in mind we are hiring additional professional staff and administrative support
   personnel to meet our oversight responsibilities.

   In January 2013, the positions of the Assistant Inspector General for Audits (“AIGA”) and
   the AIG for Universal Service Fund Oversight were merged creating the Office of Audits
   (“OA”) under the direction of the AIGA. This change simplifies the coordination of the audit
   functions of the Office.

   Our professional staff consists of well-trained, experienced professionals, most of whom
   have one or more professional certifications. In our continuing efforts to increase the
   expertise of our auditors, attorneys, investigators, and administrative staff attend training to
   meet training requirements required of our professional standards. Our staff attends
   classes at the Federal Law Enforcement Training Center, the Inspector General Criminal
   Investigative Academy, other Inspectors General training programs and other relevant
   venues.




FCC OIG - Semiannual Report to Congress           6               October 1, 2012 - March 31, 2013
                                OFFICE OF MANAGEMENT
     Information Technology (“IT”) Initiatives

    OIG is dedicated to ensuring our staff has the tools they need to accomplish our mission.
    We are committed to a regular cycle of maintaining and updating our IT systems. The most
    prominent accomplishments in this area for this reporting period are the initiation of a
    forensics laboratory and standing up our Case Management System (“CMS”).

    Commission employees, contractors and regulatees increasingly rely upon digital media in
    the performance of their duties. Consequently, effective investigations require the
    application of sophisticated technical expertise in computer forensics, as well as state of the
    art IT equipment, in order to examine digital media in a sound forensic environment. OIG
    keeps pace with this constantly evolving technological environment by supporting
    computer forensic training for investigators and during this reporting period
    acquired a computer forensic specialist. Further, OIG is in the process of developing a
    computer forensics lab that will keep pace with the growth of the Office caseload and meet
    the needs of an ever more complex, sophisticated operating environment.

    Development of our CMS system continues. The system went fully on-line in 2012 and all
    current investigations are now administered in CMS. The CMS allows the AIGI to oversee
    and manage all pending cases by keeping abreast of major developments in each
    investigation. The CMS also provides investigators with a critical tool to maintain their
    significant case-load in an organized manner. Management, in conjunction with the
    investigators who now use the system on a daily basis, continues to work with the contractor
    to fine-tune the system. Over the past year, the CMS program has been improved by
    adding enhanced reporting capabilities.

    The FCC’s CMS is a modification of one developed by the United States Department of the
    Interior OIG. OIG chose this program over many others because: (1) by being developed
    by another inspector general’s office, it is already better tuned to our specific needs; and (2)
    it presented the IG with significant savings in its use and application.

    Specifically, this is an Internet based system. Its purpose is to store and track information
    pertaining to civil, criminal and administrative investigations. It contains information on all
    investigations initiated by the FCC OIG. The CMS has enabled the Office of Investigations
    (“OI”) to formalize processes and procedures and provide standardized case files and
    information.

    After logging into the system, investigators are immediately directed to the CMS home
    screen. It allows the investigator to quickly visualize their current case load under the Case
    Summary page, as well as use hyperlinks to enter allegations and confidential informant
    information.




FCC OIG - Semiannual Report to Congress          7               October 1, 2012 - March 31, 2013
                               OFFICE OF MANAGEMENT




   The series of dropdown menus at the top of the screen help staff to navigate through CMS.




   Locations allow investigators to access forms under Downloads and review standardize
   reporting documents under CMS Reports.




FCC OIG - Semiannual Report to Congress        8             October 1, 2012 - March 31, 2013
                                OFFICE OF MANAGEMENT




The search options built into CMS allow investigators to find information, including cases,
documents and entities easily.

Investigators also have a “My Cases” menu which is separated into three sections. The first
allows access to the Case Summary page. The second includes all open cases on which the
user is the lead investigator; and the third consists of cases on which the user is an assisting
agent.

When OIG receives an allegation, information regarding the allegation must be entered into
CMS. Any agent in the OI with access to CMS may log the initial allegation and upload
pertinent information. This data will ultimately be reviewed by the AIGI to determine whether
or not the allegation should be converted into a case and investigated. Only if the allegation is
approved, will it be assigned to an agent as a new case. The system requires investigators to
input details, entities, documents, allegations, case staff, and case notes.




FCC OIG - Semiannual Report to Congress          9              October 1, 2012 - March 31, 2013
                                 OFFICE OF MANAGEMENT

 After an allegation is approved, the investigator is directed to the Case Management
 section of CMS. The Case Initiation Data section contains basic case information that was
 entered when the allegation was created. The yellow window at the top identifies the case
 number, case title, the lead agent, the day the case was opened, and the day the allegation
 was received. The status indicates that this case is currently open. Managers with access to
 the system have the ability to view the status of the entire case from their screens. Further,
 the assigned investigator will have the ability to update the Entities and Activities fields as well
 as to upload photos, documents, and hypertext links to recordings and other media.




 The CMS Reports function of the system provides a real-time snapshot of the status of cases
 in the office. Reports can be tailored to track an individual investigator’s caseload as well as
 the closed cases of the entire office. Navigating to CMS Reports in the locations menu directs
 you to the CMS report generation screen. Much like with Case Management, this screen has
 a side-bar navigation menu, which includes a comprehensive list of reports that can be
 generated.




FCC OIG - Semiannual Report to Congress           10              October 1, 2012 - March 31, 2013
                               OFFICE OF MANAGEMENT




    Using CMS, agents can generate case, activity, criminal, and civil reports. CMS reports
    are easily editable and the most flexible element of CMS. As a result, reports may be
    altered to suit users’ needs.
     Internship Program

    OIG welcomes college interns during the fall, spring and summer semesters. OIG currently
    has one paid intern and two unpaid interns. OIG is supporting the President’s Pathway
    program and plans to hire additional interns, which can be converted to FTE status if their
    demonstrated performance meets OIG standards. Most of these students take their
    internships for credit. Our interns have come from schools across the country. These
    internships have proven to be rewarding experiences for all participants. Students leave
    with a good understanding of how a government agency operates, and they have the
    opportunity to encounter challenges while enjoying the rewards that can come from public
    service. In turn, the Office has benefited from the students’ excellent work performance.
     Legislative and Policy Matters

    Pursuant to section 4(a)(2) of the Inspector General Act of 1978, 5 U.S.C.A. App. as
    amended, our Office monitors and reviews existing and proposed legislation and regulatory
    proposals for their potential impact on the OIG and the FCC’s programs and operations.
    Specifically, we perform this activity to evaluate legislative potential for encouraging
    economy and efficiency while helping to reduce fraud, waste, abuse, and mismanagement.




FCC OIG - Semiannual Report to Congress        11              October 1, 2012 - March 31, 2013
                               OFFICE OF MANAGEMENT

  In addition to legislative developments, OIG continuously monitors FCC policy development
  and provides input as appropriate. We have also participated in many surveys and data
  calls sponsored by the Council of Inspectors General for Integrity and Efficiency and the
  Recovery Accountability and Transparency Board.

  Please see the Appendix to this report for information regarding peer reviews as required by
  Public Law 111-203.




FCC OIG - Semiannual Report to Congress        12             October 1, 2012 - March 31, 2013
                                    OFFICE OF AUDITS

  OFFICE OF AUDITS

  Under the authority of the Inspector General Act of 1978, as amended, OIG conducts
  independent and objective audits and inspections designed to prevent and detect waste,
  fraud and abuse and to promote economy, effectiveness and efficiency in FCC programs
  and operations. These audits and inspections are conducted in accordance with
  professional standards.

  In January 2013, the positions of the Assistant Inspector General for Audits (“AIGA”) and the
  Assistant Inspector General for Universal Service Fund Oversight were merged creating the
  Office of Audits (“OA”) under the direction of the AIGA. The OA consists of three divisions:
  Operations, Financial, and Information Technology Division (“OFITD”), Universal Service
  Fund Oversight Division (“USFD”) and a Special Projects Division ("SPD").

  “OFITD” conducts audits, inspections, evaluations and other reviews of the FCC’s financial
  management and security, and FCC programs and operations. “USFD” conducts audits,
  evaluations, inspections, and other reviews designed to prevent and detect waste, fraud,
  and abuse and to promote economy, effectiveness, and efficiency in the Universal Service
  Fund (“USF”) programs. “SPD” performs a gamut of projections that ranges from special
  surveys, reviews and evaluations to policy guidance and legal review and support.
    Operations, Financial, and Information Technology Division

  Highlights of the work conducted by OFITD during the current semiannual
  reporting period are provided below.
     Completed Audits and Other Projects

  Audit of the FCC Fiscal Year 2012 Consolidated Financial Statements

  The Chief Financial Officers Act of 1990 (“CFO Act”), as amended, requires the OIG, or an
  OIG selected independent external auditor, to audit the financial statements in accordance
  with government auditing standards (“GAGAS”) issued by the Comptroller General of the
  United States. Under OA direction, KPMG LLP (“KPMG”), an independent public accounting
  firm, performed the audit of the FCC FY 2012 consolidated financial statements. The audit
  was conducted in accordance with GAGAS, Office of Management and Budget (“OMB”)
  Bulletin 07-04, as amended and applicable sections of the U.S. Government Accountability
  Office ("GAO")/President’s Council on Integrity & Efficiency (“PCIE”) Financial Audit Manual.




FCC OIG - Semiannual Report to Congress         13             October 1, 2012 - March 31, 2013
                                    OFFICE OF AUDITS
  On November 14, 2012, KPMG issued an Independent Auditors report with an unqualified
  opinion on FCC’s financial statements. The report also identified weakness regarding
  internal controls over financial reporting and compliance and other matters. Otherwise,
  KPMG reported that FCC’s financial statements were fairly presented in all material respects
  in conformity with U.S. generally accepted accounting principles.

  Identified Weaknesses

     1) The report on internal controls identified two control weaknesses considered to be
        significant deficiencies (a significant deficiency is defined as a deficiency or
        combination of deficiencies in internal control that is less severe than a material
        weakness, yet important enough to merit attention by those charged with
        governance.) The first related to inadequate financial system functionality and
        integration. Although FCC implemented a new financial accounting system in
        October 2011, continuing functionality issues exist resulting in certain activity
        continuing to be processed manually to maintain system data accuracy.

     2) The second identified significant deficiency is related to information technology
        controls, including deficiencies in the control environment, control activities, risk
        assessment process, and monitoring activities related to securing the information
        technology infrastructure. Based on a pervasive use of IT applications throughout the
        FCC, the information technology weaknesses may impact FCC's ability to comply with
        OMB internal control objectives for financial reporting. KPMG did not consider any of
        the deficiencies identified to be material weaknesses. (a material weakness is
        defined as a significant deficiency or combination of deficiencies in internal control
        such that there is a reasonable possibility that a material misstatement of the entity’s
        financial statements will not be prevented, or detected and corrected on a timely
        basis.) FCC management concurred with the report recommendations.

  The Commission is responsible for complying with all applicable laws, regulations, and
  contract provisions. To obtain reasonable assurance of whether the FCC financial
  statements are free of material misstatement, KPMG performed tests of the Commission’s
  compliance with provisions of laws, regulations, and contracts that could have a direct and
  material effect on the determination of financial statement amounts. Testing identified two
  instances of noncompliance. First, the Commission was not in compliance with the Federal
  Managers Financial Integrity Act since the current financial systems and processes do not
  achieve financial system integration standards set within GAO Standards for Internal Control
  in the Federal Government. Second, testing identified non-compliance with the Debt
  Collection Improvement Act due to issues with the new system’s functionality.




FCC OIG - Semiannual Report to Congress         14             October 1, 2012 - March 31, 2013
                                    OFFICE OF AUDITS

  As required by Chapter 4700 of the Treasury Financial Manual issued by the U.S.
  Department of the Treasury (“Treasury”), the FCC prepared special-purpose financial
  statements providing financial information to Treasury and GAO to use in preparing and
  auditing the Financial Report of the U.S. Government. Under OIG oversight, KPMG
  performed an audit of the special purpose financial statements in accordance with GAGAS
  and OMB Bulletin 07-04 as amended. KPMG issued an unqualified opinion on the
  Commission’s Special Purpose Financial Statements disclosing no significant deficiencies
  in the internal controls over the financial reporting process for the special purpose
  statements and no instances of noncompliance.

  Fiscal Year 2012 Federal Information Security Management Act Evaluation

  The Federal Information Security Management Act (“FISMA”) requires federal agencies to
  develop, document, and implement an agency-wide program to provide information security
  for the information and information systems supporting the operations and assets of the
  agency, including those provided or managed by another agency, contractor, or other
  source. According to FISMA, “information security” means protecting information and
  information systems from unauthorized access, use, disclosure, disruption, modification, or
  destruction in order to provide integrity, confidentiality and availability.

  OIGs are required to annually evaluate agency information security programs and practices.
  The evaluations must include testing a representative subset of systems, and an
  assessment (based on that testing) of the agency’s compliance with FISMA and applicable
  requirements. OIG contracted with KPMG to perform the FY 2012 evaluation.

  During this semiannual reporting period, KPMG completed its evaluation and identified
  fifteen (15) findings and offered eighty (80) recommendations. FCC management generally
  concurred with the recommendations. Our FY 2012 FISMA report was issued on
  December 31, 2012.

  Agency Verification of American Reinvestment and Recovery Act Funds Update

  The American Recovery and Reinvestment Act of 2009 (“ARRA” or “Recovery Act”)
  specified two programs under FCC jurisdiction: the Digital-To-Analog Converter Box
  Program (“DTV”), and the national broadband plan. As of March 2012, the FCC had
  obligated over $98 million of Recovery Act funds in furtherance of these programs including
  $62 million for DTV-related contracts and $36 million for contracts related to development of
  a national broadband plan.

  The Recovery Accountability and Transparency Board (“Recovery Board”) requested that
  agencies review the status of their funds authorized or received under the Recovery Act.
  The Recovery Board also requested that OIGs assist with coordinating the agency reviews.



FCC OIG - Semiannual Report to Congress         15              October 1, 2012 - March 31, 2013
                                     OFFICE OF AUDITS

   FCC validated the status of Recovery Board reported FCC ARRA obligations identifying
   differences between Recovery Board data and FCC reported amounts totaling $12,607,792
   (rounded). Of that amount, management noted that $3,621,416 reported by the Recovery
   Board as unexpended as of December 31, 2012, was transferred back toTreasury and
   $8,986,376 reported as expired by the National Telecommunications Information Agency was
   returned to Treasury.

   The OA review of the validation of FCC ARRA funds was limited to management inquiries
   related to confirming the accuracy of reported ARRA appropriations and obligations;
   methodology used for identifying expired or expiring funds; and reviewing documentation
   supporting management’s corrections to the Recovery Board reported obligations. Our report,
   dated March 8, 2013 did not identify any errors or other deficiencies in FCC management’s
   procedures for confirming and correcting the balances for ARRA appropriations, transfers,
   obligations and expired funds.

   Inspection of Jobs Created by American Reinvestment and Recovery Act Funds

   The OA performed an inspection of the reporting of job creation data by FCC contractors in
   accordance with the Recovery Act. Section 512 of the Recovery Act and OMB guidance
   require recipients (such as contractors) and subreceipients (such as subcontractors) of federal
   assistance awards to report on the nature of projects and the number of jobs created or
   retained using Recovery Act funds. We conducted our inspection under the authority of the
   Inspector General Act of 1978, as amended, and according to “Quality Standards for
   Inspection and Evaluation,” issued January 2011 by the Council of the Inspectors General on
   Integrity and Efficiency.

   Recipients had to report this information on-line quarterly to FederalReporting.gov, a
   nationwide data collection system created and managed by OMB and the Recovery Board.
   To provide transparency of the use of Recovery Act funds, reports are made available to the
   public on the Recovery.gov Web site and individual agency Web sites.

   Approximately $71 million in Recovery Act funds was transferred to the FCC for consumer
   education and outreach related to the transition from analog to digital television. The majority
   of the FCC Recovery Act funds were paid to contractors to fulfill the FCC’s responsibility
   under the DTV transition. The inspection of supporting documentation from four contractors
   disclosed the following:

      1) One contractor supported and calculated the number of jobs created or retained
         according to the Recovery Act and OMB guidelines; accurately tracking employee hours
         worked with a time recording system developed by the FCC to monitor contract work.




FCC OIG - Semiannual Report to Congress          16              October 1, 2012 - March 31, 2013
                                    OFFICE OF AUDITS
       2) One contractor had no data to support the number of jobs reported as created or
          retained by contracts funded with Recovery Act dollars. The prime contractor did
          not collect data from subcontractors (who performed a majority of the work) to
          accurately calculate the number of jobs created or retained by Recovery Act funds.
       3) Two contractors submitted data with material errors and omissions; therefore, the
          OA could not determine the accuracy of the reported job data.

    Management comments concurring with the report’s conclusions were incorporated into
    the final report, dated October 16, 2012.
       In-Process Audits and Other Projects

    Audit of the FY2013 Consolidated Financial Statements

    During this semiannual reporting period, OA initiated the FY 2013 FCC Financial
    Statement audit and FISMA. The objective of the audit is to provide reasonable
    assurance as to whether the agency’s financial statements are presented fairly in all
    material respects. Other objectives are to provide an assessment of the internal controls
    over transaction processing for accurate financial reporting and compliance with
    applicable laws and regulations. The audit is being performed by KPMG under the
    direction of the OA in accordance with GAGAS, OMB Bulletin 07-04, as amended and
    applicable sections of the GAO/PCIE Financial Audit Manual.

    Sole Source Contracts Inspection

    The OA is conducting an inspection of the FCC’s award and administration of sole source
    contracts. The scope includes contracts awarded in FY 2011 and 2012. Objectives are
    to:

          1) Determine if sole source contracts were awarded (scope to include
             pre-solicitation, solicitation, evaluation, award, and administration) in
             accordance with provisions of the Federal Acquisition Regulation, FCC policies
             and procedures; and
          2) Evaluate the adequacy of the design and implementation of internal controls
             related to the award of sole source contracts.

    We anticipate issuing our final report during the next semiannual reporting period.




FCC OIG - Semiannual Report to Congress         17             October 1, 2012 - March 31, 2013
                                      OFFICE OF AUDITS
  Website Security Assessment

  The FCC Website Security Assessment objectives include:

        1) Evaluate the adequacy and effectiveness of the controls over the FCC’s website
           environment, related directives, policies, and procedures;
        2) Determine compliance with the National Institute of Standards and Technology
           guidance regarding website management and security, including security in public
           cloud computing.

  Our assessment is being conducted under the authority of the Inspector General Act of 1978,
  as amended and will be completed during the next semiannual reporting period.

  Audit of the FCC Red Light Rule: Debt Collection

  OA has contracted through the Small Business Administration an independent public
  accounting firm Lani Eko and Company (“LEC”) - a small set-aside business to perform an
  audit of the FCC’s Red Light Rule, part of FCC’s debt collection effort, for fiscal years 2011
  and 2012. Audit objectives include:

       1) Determine the effectiveness and accuracy of the recording and reporting of debt
          owed to the FCC;
       2) Evaluate the efficiency of collecting debt owed to the FCC;
       3) Assess the adequacy and the effectiveness of the internal controls over the process
          of tracking, collecting, and reporting debt owed to the FCC; and
       4) Determine the FCC’s compliance with applicable laws and regulations as well as
          directives, policies, and procedures related to the Red Light Rule.

  Audit of FCC Management and Protection Of Information Associated with Social Media

  OA has contracted with LEC to perform an audit to determine if FCC properly protects and
  manages information associated with social media use, including Personal Identifiable
  Information (“PII”). Audit objectives include:

      1) Determine adequacy of FCC controls to properly manage and safeguard information,
         including PII, collected and disseminated thru the use of social media; and
      2) Evaluate FCC compliance with federal records management, privacy, and security
         laws as they relate to the FCC’s use of social media.




FCC OIG - Semiannual Report to Congress           18             October 1, 2012 - March 31, 2013
                                    OFFICE OF AUDITS
   Audit of the FCC Administrative Operations

   OA contracted with LEC for a performance audit of the FCC Administrative Operations (“FCC
   AO”). FCC AO has seven components: Administrative Service Center, Health & Safety,
   Facilities, Contracts & Purchasing, Printing and Graphics Center, Security Operations
   Center, and the Space Management Center. Audit objectives include:

      1) Identify and assess the adequacy and the effectiveness of the controls over certain
         aspects of FCC AO; and
      2) Determine the adequacy of and compliance with FCC rules, related directives,
         policies, and procedures; and determine FCC compliance with federal guidance
         regarding administrative operations.

   Audit of the FCC Information and Technology Center Compliance with OMB Circular A-130

   OA contracted with LEC to perform an audit to determine whether the FCC is complying with
   requirements of OMB Circular A-130, Management of Federal Information Resources, as
   revised. The Circular requires agencies to establish and maintain an integrated Information
   Technology capital planning and investment control process. The audit began in February
   and LEC is currently in the planning phase.

   Audit of the FCC Civil Monetary Penalties

   OA contracted with LEC to audit FCC management practices for initiating, tracking and
   collecting civil monetary penalties. Audit objectives include:

      1) Identify and assess the adequacy and the effectiveness of FCC controls over the
         management of Civil Monetary Penalties; and
      2) Determine the adequacy of and compliance with FCC’s rules, directives, policies, and
         procedures; and determine FCC compliance with OMB, Treasury, and other federal
         government guidance regarding collections.

   Follow-Up Inspection of the Implementation of Policies and Procedures to Improve the
   Purchase and Travel Card Program

   OA is conducting an inspection of FCC’s purchase and travel card program to follow-up on
   findings from a 2010 OIG audit. Field work is complete and the report is being prepared.
   The inspection will determine whether policies and procedures have been implemented to
   address deficiencies reported in the June 23, 2010 audit report and evaluate the adequacy
   of the design and implementation of related internal controls.




FCC OIG - Semiannual Report to Congress         19            October 1, 2012 - March 31, 2013
                                    OFFICE OF AUDITS
  Audit of 2011 Federal Funds Paid to Telecommunications Relay Service Providers

  The Telecommunications Relay Service (“TRS”) fund compensates communications service
  providers for the costs of providing interstate telecommunications services that enable a
  person with hearing or speech disabilities to communicate with a person without hearing or
  speech disabilities. Video Relay Service (“VRS”) is form of TRS that enables persons with
  hearing disabilities who communicate in American Sign Language to communicate with
  voice telephone users through video equipment and an interpreter.

  VRS providers are compensated from the TRS fund for minutes of service provided, at the
  rates established by the FCC. The TRS fund has grown substantially since its inception due
  to the increase in minutes of service compensation claimed, but fell sharply for the
  2010-2011 fund year. The fund’s initial allotment in 1993 for distributions was $31 million
  and has increased over the next six years to $38 million in 1999. After 1999, the fund
  increased approximately 50-80 percent each year until it reached $891 million in the
  2009-2010 fund year. The fund size fell sharply to $739.3 million for the 2010-2011 fund
  year and $711.4 million in 2012-2013.

  OA contracted with independent public accounting firm, CliftonLarsenAllen (“CLA”) for
  performance audits of five VRS providers. Objectives are to determine whether all federal
  funds paid in 2011 were applied in accordance with TRS program requirements and
  supported by adequate documentation, and to follow-up on prior year audit findings. The
  audit report for one VRS provider, Sorenson Communications Inc., was published during
  the prior semiannual reporting period. The field work for the remaining four audits is
  complete and the audit reports are being prepared for publication.

  Audit of 2012 Federal Funds Paid to Telecommunications Relay Service Providers

  The Office of Audits contracted with CLA for performance audits of five VRS providers.
  Audit objectives include:

     1) Determine whether all federal funds paid to providers in 2012 were applied in
        accordance with TRS program requirements and supported by adequate
        documentation; and
     2) Follow-up on prior year findings and recommendations; audit field work is in process.

  Audit of VRS Providers Relay Service Data Request Projections

  The Office of Audits contracted with LEC for performance audits of VRS providers cost and
  minutes of service projections included in annual data submissions. Audit objectives
  include:




FCC OIG - Semiannual Report to Congress        20             October 1, 2012 - March 31, 2013
                                    OFFICE OF AUDITS

      1) Determine the basis of the calculations used to arrive at projections included in the
         Relay Service Data Requests (“RSDR”) forms submitted for rate setting purposes
         and;
      2) Determine if the costs supporting the projections were allowable, reasonable and
         based on relevant historical and pertinent information.

   The scope of the audit includes cost and minutes of service projections for program years
   2008 through 2012.

   Audit of the TRS Fund Administrator

   The Office of Audits contracted with LEC for a performance audit of the TRS Fund
   Administrator for the period from March 7, 2011 through September 30, 2012. Audit
   objectives include:

      1) If the Administrator designed and implemented adequate internal controls to
         safeguard the fund’s assets; and
      2) Whether the following fund administration responsibilities are being effectively
         performed:

            Collecting money for the TRS Fund
            Developing compensation rate recommendations
            Determining the annual TRS Fund size and Carrier Contribution Factor
            Making payments to the TRS providers
            Advising the FCC on cost recovery issues

   This audit should be completed during the next semiannual reporting period.

   Universal Service Fund Oversight Division

   The Universal Service Fund Oversight Division (“USFD”) conducts audits, evaluations,
   inspections, and other reviews designed to prevent and detect waste, fraud, and abuse
   and to promote economy, effectiveness, and efficiency in the Universal Service Fund
   (“USF”) programs including the following:

   The High Cost Program helps to ensure that consumers across the country pay rates for
   telecommunications services that are comparable to those available in urban areas. In
   2011, over 1,900 eligible telecommunications carriers received approximately $4 billion,
   which benefits Americans living in remote or rural areas.




FCC OIG - Semiannual Report to Congress          21             October 1, 2012 - March 31, 2013
                                    OFFICE OF AUDITS

   The Schools and Libraries Program, often called “E-Rate,” provides discounts to help
   schools and libraries in every U.S. state and territory secure affordable telecommunications,
   Internet access, basic maintenance, and internal connections. Over 21,000 eligible
   applicants benefited in Funding Year 2011, receiving approximately $2.2 billion, bringing
   telecommunications and Internet services to millions of students and library patrons.

   The Low Income Program helps eligible low-income consumers establish and maintain
   telephone service by discounting services provided to them by local telephone companies.
   Over 13.7 million low-income households throughout the nation benefited from 2011
   program payments of approximately $1.75 billion.

   The Rural Health Care Program provides reduced rates to rural health care providers
   including mobile health centers, hospital pharmacies, and medical training institutions for
   telecommunications and Internet services necessary for providing health care. Over 3,000
   health care providers received approximately $81million in support in CY 2012. The Pilot
   Program supports the development of advanced networks to support telemedicine services.

   Contributors. OIG is also responsible for providing oversight of USF receipts collected from
   telecommunications providers of international and interstate telecommunications services
   referred to as contributors.

   The USFD is organized into three operational teams including (1) High Cost, (2)
   Contributors/Low Income, and (3) Schools and Libraries/Rural Health Care. Highlights of
   Work conducted by the USFD during the current semiannual reporting period are provided
   below.

   Compliance Assessment Program Overview

   As part of the USFD effort to ensure beneficiary and participant compliance with USF
   programs regulations and to evaluate effectiveness of the programs, OA is continuing the
   Compliance Assessment Program (“CAP”) discussed in our last semiannual report to
   evaluate compliance, efficiency, and effectiveness of USF programs. CAPs are conducted
   in accordance with the “Quality Standards for Inspection and Evaluation” issued by the
   Council of the Inspectors General on Integrity and Efficiency. These inspections are
   performed consistent with OIG authority, for example, under sections 2(1) and 4(a) (1) of
   the Inspector General Act of 1978, as amended. CAPs are not intended as a substitute for
   any agency regulatory compliance review or regulatory compliance audit. Currently CAPs
   are being used for the High Cost and Schools & Libraries programs.



   .



FCC OIG - Semiannual Report to Congress         22              October 1, 2012 - March 31, 2013
                                    OFFICE OF AUDITS
   Completed Audits and Other Projects

  Contributors/Low Income Program

  Two Low Income program survey reports were issued during the semiannual reporting period:
  CenturyLink and Surewest Telephone.

  Our CenturyLink report, issued January 9, 2013, disclosed that no instances of noncompliance
  with the FCC’s Low Income program rules but did disclose a small number of potentially
  duplicate lifeline accounts for subscribers at the same apparent address that we referred to the
  Company for possible corrections.

  Our Surewest Telephone report, issued February 21, 2013, disclosed no significant instances
  of non-compliance with FCC’s Low Income program rules but did disclose a minor issue in
  which the Company did not maintain documentation for a small percentage of its subscribers
  that voluntarily opted for toll limitations.

  Schools and Libraries/Rural Health Care Programs

  On December 10, 2012, we issued our compliance audit report of Hampstead Hill Elementary
  School (“HHES”), a Baltimore City MD public charter school. Our audit disclosed that HHES
  did not comply with FCC rules related to (1) procurement matters, (2) reimbursement matters,
  (3) record retention and (4) assets and inventory records relative to disbursements made
  during funding years (FYs) 2008 and 2009. HHES did not retain adequate documentation to
  determine compliance with competitive bidding requirements. Some E-Rate funded
  equipment could not be located and documentation to support whether basic maintenance
  charges billed were for eligible components. We recommended FCC recovery of FYs 2008
  and 2009 disbursements totaling $292,444. We also recommended that HHES improve
  policies and procedures related to documentation and record-keeping.

   In-Process Audits and Other Projects

  Review of 16 High Cost Incumbent Local Exchange Carriers

  On December 6, 2012, announcement letters were sent to 16 high cost Incumbent Local
  Exchange Carriers (“ILEC”) including a request for data necessary to initiate the survey phase
  of our focused inspections. Major focus areas include, but are not limited to:




FCC OIG - Semiannual Report to Congress          23             October 1, 2012 - March 31, 2013
                                      OFFICE OF AUDITS

       1) Reasonableness of USF High Cost disbursements.

               Costs outside of study area included in USF (may be limited exceptions)
               Affiliate transactions rules followed
               Regulated/non-regulated cost assignment rules followed
               Depreciation methods
               Other reasonableness tests

       2) Reasonableness of interstate special access revenue requirements in light of
          changes from the Transformation Order.

    Contributors/Low Income Program

    The following USF Low Income program draft reports were issued during the semiannual
    reporting period: Affordable Home Phones, Easy Telephone Service, and Absolute
    Home Phones. Draft reports were provided to auditees to obtain comments on
    preliminary findings. We anticipate issuing final reports during the next semiannual
    reporting period. All of our Low Income compliance audits also include limited tests of
    the Company’s FCC Forms 499-A, Telecommunications Reporting Worksheet to test the
    reasonableness of the revenues reported for USF contributions. Other Low Income
    audits in process during the period include:

       1)   Budget Prepay, Inc.
       2)   Mextel Corporation
       3)   Fast Phones (AL, NC)
       4)   Flatel (FL)
       5)   Michigan Bell Telephone (MI)
       6)   Nexus Communications, Inc. (GA, IL, LA, MS)
       7)   Puerto Rico Wireless (PR)
       8)   United Telephone of the NW (WA)
       9)   Virgin Mobile (FL, MI, NC, NY)

    Review of the FCC/USAC Lifeline Verification Process

    During this reporting period, OA initiated a review of the Universal Service
    Administrative Company (“USAC”) process to identify and resolve duplicate Low Income
    subscriber accounts, describing potential improvements to the process and including a
    list of additional analysis to be performed.

    In 2011, the FCC issued the Duplicative Lifeline Payments Order (FCC-11-97) directing
    USAC to identify and correct duplicate Lifeline subscriber accounts. The process, called
    In-depth Data Validations, compares subscriber listings obtained from selected Lifeline
    providers in a given state. USAC has reviewed 9.4 million subscribers and found that


FCC OIG - Semiannual Report to Congress           24             October 1, 2012 - March 31, 2013
                                   OFFICE OF AUDITS

   9.6 percent or about 900,000 subscribers have more than one Lifeline account. Over
   150,000 subscribers were found to have three or more accounts, with some having as
   many as 11 accounts.

   Our plans for the coming reporting period include determining:

      1) Whether appropriate action is taken when subscribers are found with multiple
         accounts. The same guidance is used to resolve situations where a subscriber is
         found to have two Lifeline accounts as subscribers found with three or more Lifeline
         accounts. We believe subscribers found with greater numbers of duplicate Lifeline
         accounts indicates potential fraudulent actions.
      2) Whether penalty of perjury warnings given to subscribers are effective. The current
         warning on the Lifeline application, USAC correspondence, and FCC Enforcement
         Bureau letters to subscribers with multiple accounts may not be effective to reduce
         abuse.

   Schools and Libraries/Rural Health Care Programs

   During this semiannual reporting period OA completed the Perry Street Preparatory Public
   Charter School CAP and issued a draft report to the school for comment. We expect to
   issue the final report during the next semiannual reporting period.

   Contracted Audits of USF Programs

   OA is currently developing a contract vehicle, Basic Purchase Agreement ("BPA"), for
   performing fifty-eight USF Program audits over the next five years. The BPA will be for a
   base year and four option years. The BPA is scheduled to be completed during the next
   semiannual reporting period.

   The BPA will be used by the Office of Audits to select several large, medium, small and
   small disadvantaged businesses for competing for USF Program audits in all programs
   including Contributors. The audit firm demonstrating the best technical solution and best
   price will be awarded audit contracts. The BPA is being funded from OIG funds
   transferred from the USF in FY 2008.
   Special Projects Division
   Highlights of the work conducted by the SPD during the current semiannual reporting
   period are provided below.




FCC OIG - Semiannual Report to Congress        25             October 1, 2012 - March 31, 2013
                                    OFFICE OF AUDITS

    Completed Projects

  Internal Review of OIG Audit Policies and Procedures

  The AIGA chartered a Process Action Team (“PAT”) to review OA policies and procedures
  for performing GAGAS compliant audits. The PAT used the Guide for Conducting External
  Peer Reviews of the Audit Organizations of the Federal Offices of Inspector General to
  conduct their review. Procedures included staff interviews, questionnaires and an evaluation
  of existing policies and procedures.

  The review found that policies were generally in compliance with GAGAS, but needed some
  updating and improvement. Recommendations included clarification of specific sections of
  the audit manual and improving monitoring to ensure GAGAS updates are addressed and
  communicated to the staff.

  House Commerce Committee Subcommittee On Communications and Technology Hearing

  On February 27, 2013, OA staff monitored the House Commerce Committee Subcommittee
  on Communications and Technology Hearing, “Is the Broadband Stimulus Working?” The
  hearing was held to examine the status and effectiveness of the approximately $4.7 billion
  provided to NTIA as part of the American Recovery and Reinvestment Act of 2009 (Recovery
  Act), enacted four years ago. It mandates an OIG role for monitoring the use of the funds to
  prevent fraud, waste, and abuse.

  U.S. Senate Commerce Committee Hearing on FCC Oversight

  OA staff attended the U. S. Senate Commerce Committee’s FCC Oversight Hearing March
  12, 2013. Topics included a discussion on the need to ensure protection against fraud and
  abuse as part of the expansion of Broadband and an expansion of the E-Rate program that
  would additionally provide schools now eligible for USF funding with both expanded access
  to and transfer of data. Specific areas and points of interest to OA included:

     1) E-rate 2: Senator Rockefeller said that he favors creation of an E-Rate 2 program that
        would focus on data so that USF eligible schools would be able to catch up to the
        growing need for data access and transfer.
     2) Future Hearings on Communications Markets: Chairman Pryor announced a future
        hearing with no specific coverage except that two principles should govern:
        A. Investment support for Broadband and
        B. Consumer confidence in privacy, and protection against fraud and abuse.
     3) Connect America Fund: Chairman Genachowski described the first phase of CAF
        funding and assured Senator Pryor that FCC is on schedule for the next phase.




FCC OIG - Semiannual Report to Congress        26             October 1, 2012 - March 31, 2013
                                    OFFICE OF AUDITS
     In-Process Projects

  Review and Update of OIG Audit Manual

  During this reporting period, OA initiated a review of the Audit Manual to ensure compliance
  with the latest GAGAS requirements and currency as it relates to Office of Audits practices.
  This project builds on recommendations of the previously discussed PAT project. In
  preparation for our upcoming peer review, OIG will issue an interim updated manual as of
  March 31, 2013. OIG plans to issue a completely revised and updated manual during the next
  reporting period.

  Performance Audit of FY2012 FCC Compliance with the Improper Payments Elimination and
  Recovery Act of 2010

  OIG continued to carry out its responsibilities under Pub. L. 111-204, the Improper Payments
  Elimination and Recovery Act, as amended (“IPERA”). In accordance with OMB guidance,
  Memorandum for the Heads of Executive Departments and Agencies, M-11-16, dated April
  14, 2011, the OIG engaged KPMG to review FCC compliance with IPERA.

  On February 27, 2013, the Office of the Managing Director (“OMD”), issued an Erratum in the
  nature of an amended 2012 Annual Financial Report. By its timing that issuance affects the
  schedule under which the OIG will submit the results of its agency compliance determination
  as specified in OMB Guidance.

  During this semiannual reporting period, Office of Audits staff regularly met with KPMG staff
  reviewed periodic Payment Quality Assurance reports used to implement IPERA, and
  attended meetings and interviews.

  Congressional Request - Bicameral Task Force on Climate Change

  The co-chairs of the House Bicameral Task Force on Climate Change directed OIG to assess
  FCC action in response to legislation, regulation, executive orders, and other directives
  pertaining to climate change. These include, but are not limited to, the Energy Independence
  Security Act of 2007, and Executive Order 13514. Specifically, OIG was asked to report the
  following:




FCC OIG - Semiannual Report to Congress          27             October 1, 2012 - March 31, 2013
                                    OFFICE OF AUDITS
     1) Existing requirements in legislation, regulation, executive order, and other directives
        pertaining to climate change that apply to the FCC.
     2) A detailed list of what, specifically, the FCC has done in order to comply with the
        requirements referenced in item 1.
     3) What authority the FCC has to take steps to reduce emissions of heat-trapping
        pollution?
     4) What authority the FCC has to make the nation more resilient to the effects of climate
        change?
     5) The most effective additional steps the FCC can take to reduce emissions or strengthen
        resiliency?

  An initial meeting was held with FCC representatives on March 26, 2013 and the OIG interim
  response was provided to Congress on March 29, 2013 describing the project plan and
  preliminary information received. We will issue our final response during the next reporting
  period.




FCC OIG - Semiannual Report to Congress         28             October 1, 2012 - March 31, 2013
                             OFFICE OF INVESTIGATIONS

   OFFICE OF INVESTIGATIONS

   OIG OI investigations cover a wide range of topics touching on myriad aspects of the
   FCC’s mission and programs. Most significantly, our investigations often address
   allegations of criminal misconduct or civil false claims. We deal with complex cybercrime
   investigations, large criminal conspiracies, and matters involving complex financial
   transactions throughout the United States and its territories. These difficult and
   wide-ranging cases often require substantial investigative expertise and resources
   including personnel on the ground across several states, or high-grade forensic tools and
   the expertise to use them. In these cases, we have always received, and are grateful for,
   the assistance of other agencies, especially the Offices of Inspector General of other
   federal agencies, and particularly, the Federal Bureau of Investigation (“FBI”).

   OI investigates complaints regarding the manner in which the FCC executes its programs,
   how it handles its operations administratively, and how the FCC conducts its oversight
   responsibilities. Allegations come from a variety of sources including FCC managers and
   employees, contractors, program stakeholders, and whistleblowers.

   In addition to investigations regarding Commission programs, OIG investigates internal
   affairs and examines allegations of improper employee and contractor activity implicating
   federal statutes or regulations establishing standards of conduct and procedure.

   OI, like most government offices, has an ever-increasing volume of work and limited
   resources. Thus, matters having the potential to significantly impact federal funds,
   important FCC missions or programs, or the basic integrity and workings of the agency,
   receive the highest priority for investigation and assignment of resources.

     Activity During This Period

   At the outset of this reporting period, 82 cases were pending. Over the last six months,
   28 cases have been closed and 29 opened. As a consequence, a total of 83 cases are
   pending. These numbers do not include preliminary reviews of allegations, from the
   Hotline or other sources, or matters involving minimal analysis of the allegations or
   evidence.
       Statistics

   Cases pending as of October 1, 2012         82
   New Cases                                   29
   Cases Closed                                28
   Cases pending as of March 31, 2013          83




FCC OIG - Semiannual Report to Congress        29              October 1, 2012 - March 31, 2013
                               OFFICE OF INVESTIGATIONS
      Significant Activities

  Several of the Office’s significant activities are described below. However, we discuss
  investigations only when and if information may be made public without negative impact on
  law enforcement activities, including criminal prosecutions, and without divulging investigative
  techniques. Thus, many matters could not be considered for inclusion in this summary.

  Investigations into Fraud in the Federal Universal Service Program

  The bulk of the work of OI involves investigating and supporting civil and criminal
  investigations/prosecutions of fraud in the FCC’s federal universal service program and TRS
  programs. The AIGI and Investigations staff work routinely with other state, local and federal
  agencies in these matters. These coordinated investigatory and prosecutorial efforts,
  especially those involving the DOJ and its OIG and various U.S. Attorneys, have resulted in
  many successes, including civil settlements and criminal convictions.

  Most of our on-going universal service investigations are not known to the public and even
  some closed investigations cannot be disclosed because of sensitivities that could impact
  related ongoing matters. Some of our matters that have had public developments during the
  reporting period are highlighted below.

  Civil Settlements and Criminal Convictions

  A civil False Claims Act case arising from an investigation into corruption at the Houston
  Independent School District (“HISD”) is set to go to trial May 7, 2013 in a Houston, Texas
  federal court. Larry Lehmann, the defendant in the civil suit, admitted in a 2008 deposition to
  providing loans to two separate HISD assistant superintendents for technology, Laura Palmer
  and William Edwards.

  The investigation has already resulted in civil settlements with HISD and Hewlett-Packard, as
  well as criminal convictions of Dallas Independent School District’s chief technology officer,
  Ruben Bouchot, and Lehmann’s business partner, Frankie Wong.

  The civil complaint alleges that, in addition to providing improper gifts and gratuities, Lehmann
  knowingly submitted and caused to be submitted false claims, false records, and false
  statements in order to obtain payments from the E-rate Program for work performed at HISD
  for ineligible services.

  In particular, Lehmann orchestrated a plan whereby HISD staff who worked on E-rate and
  non-E-rate projects would be hired by Lehmann’s company, Acclaim Professional Services.
  These outsourced employees were billed to the E-rate program while continuing to work at
  HISD as de facto HISD employees.



FCC OIG - Semiannual Report to Congress          30             October 1, 2012 - March 31, 2013
                               OFFICE OF INVESTIGATIONS
    Lehmann and his partners made the provision of these outsourced employees’ costs
    contingent on winning E-rate contracts at HISD. The E-rate program does not reimburse
    for school employee labor costs.

    Investigation into Fraud in the Federal Communications Commission Telecommunications
    Relay Service

    OI is continuing its work with the Criminal Division of DOJ and the FBI on several
    investigations involving fraud on the FCC’s Telecommunications Relay Service (“TRS”)
    Fund program. Please see the “Audit of 2011 Federal Funds Paid to Telecommunications
    Relay Service Providers” section of this report (page 20) for a definition of the TRS/VRS
    program.

    Sentencing of those indicted during the initial round of indictments in November 2009, as
    well as those indicted subsequently, on allegations of mail and wire fraud, conspiracy, and
    submitting false or fraudulent claims for reimbursement for VRS completed during previous
    reporting periods, remains ongoing. On October 16, 2012, Benjamin Pena, the only
    individual indicted who did not enter a plea and who was found guilty by a federal jury on
    five of six counts in June, 2010, was sentenced to 55 months imprisonment and three
    additional years of supervised release. Mr. Pena was also ordered to pay restitution in the
    amount of $1,280,000.

    In addition to working with the Criminal Division of DOJ, OIG is also continuing its support
    of the Civil Division in the investigation of a Qui Tam case (federal false claims action
    brought in the name of the United States by a private citizen, the relator) against AT&T, for
    allegedly defrauding the TRS Fund in its provision of IP Relay, another form of TRS that
    allows individuals with hearing disabilities to communicate with voice telephone users
    through an internet connection and a communications assistant. The government’s
    complaint in intervention alleges that, by knowingly processing, and claiming compensation
    for, calls by hearing fraudsters, often residing in foreign locations (e.g., Nigerian Scam
    Calls), AT&T submitted false claims under the federal False Claims Act. The parties are
    actively litigating the matter.

    The OI also continues to follow the Commission’s on-going TRS reform-related work,
    including efforts to reform services that are seeing a significant spike in usage, such as IP
    Cap-tel, a service intended to assist individuals with hearing loss by allowing them to listen
    to the spoken word while simultaneously reading captions of what is being spoken.




FCC OIG - Semiannual Report to Congress           31             October 1, 2012 - March 31, 2013
                              OFFICE OF INVESTIGATIONS

   Investigations into Fraud in Recovery Act Funded FCC Contracts

   OI has received allegations of fraud, waste, abuse and misconduct in the American Recovery
   and Reinvestment Act of 2009 (“ARRA” or “Recovery Act”) programs from a variety of
   sources, including the OIG Hotline, news reports, and the FCC’s Office of Managing Director.
   Presently, the FCC OIG has closed 26 investigations and has five remaining active
   investigations pertaining to misconduct in the Recovery Act programs. OIG investigations
   have revealed fraud, as well as a number of contractual problems including invoice issues
   and verification of performance.

   Examples of DTV-related allegations received and investigated by OIG include:

         1) Submission and payment of claims for compensation when work was not performed;
            and
         2) Failure of contractor to submit timely and accurate invoices in accordance with the
            terms of their contract; and
         3) Improper invoicing by subcontractor to the FCC.

   Eric B. Jenkins, President of PrimeX Technology, Inc.

   On February 22, 2013, in the United States District Court for Arizona, Eric B. Jenkins,
   President of PrimeX Technology, Inc., plead guilty to one count of Transactional Money
   Laundering in connection with claims for compensation in the Recovery Act/DTV In-Home
   Converter Box Installation Services program.

   Mr. Jenkins and his company were awarded two converter box installation contracts: one
   contract called for PrimeX to complete 10,000 Basic Installations for an overall contract value
   of $650,000; the other called on PrimeX to complete 1,000 Expert Installations for an overall
   contract value of $78,000.

   PrimeX submitted seven invoices to the FCC claiming it had completed 7,594 basic
   installations and 550 expert installations and demanded a total of $536,510 in payment. The
   FCC accepted five of the invoices and remitted $493,610 to PrimeX as payment for the
   claimed installations. The FCC refused to accept the other two invoices, however, after
   discrepancies arose.

   The OI investigation revealed that all seven invoices and the supporting information were
   false. In fact, none of the claimed installations ever occurred.

   The sentencing will occur in the summer 2013. The OI assisted in this investigation with the
   U.S. Attorney’s Office in the District of Arizona and the FBI.




FCC OIG - Semiannual Report to Congress          32             October 1, 2012 - March 31, 2013
                             OFFICE OF INVESTIGATIONS

     Internal Affairs

    The IG is authorized by the IG Act, as amended, to investigate allegations of fraud, waste
    and abuse occurring within FCC programs and operations. Matters of possible
    wrongdoing are referred to the Office of Investigations in the form of allegations or
    complaints from a variety of sources, including FCC employees, contractors, other
    government agencies and the general public.

    In conducting investigations during the past several years, OI has sought assistance from
    and worked jointly with other law enforcement agencies, including other OIGs, the FBI, the
    Federal Trade Commission (“FTC”), the Department of Homeland Security, the Securities
    and Exchange Commission, the Internal Revenue Service, National Archives and Records
    Administration, and the Recovery Accountability and Transparency Board as well as state
    agencies.

    During this reporting period, the OI, Internal Affairs Division opened 10 cases and closed
    24 cases, including eight involving Recovery Act funds. In total, the division has 33 open
    cases.

    Highlighted below are a few matters that have had public developments during the
    reporting period.

    Contracting Improprieties, Misuse of Position, and Abuse of Authority by FCC Senior
    Employee

    In June 2012, an FCC manager notified OI of possible contracting Improprieties and other
    inappropriate behavior related to a senior FCC employee. These allegations included:
    misuse of network access; receipt of kick-backs or bribes; improper contracting practices,
    including “steering” contracts and asking contractors to perform “out of scope” work; and
    creating a hostile environment. The hostile work environment allegations were referred to
    the Office of Managing Director, Office of Security.

    Over several months, OI conducted numerous interviews of contractors and federal
    employees to look into these allegations. The investigation took additional time to
    complete, as it was difficult scheduling interviews with several of the contractors and
    employees and because several contractors were reluctant to meet with OIG investigators
    (out of fear the manager involved would retaliate). OIG found that, while the manager’s
    conduct caused some contractors to think kick-backs might have been requested, none, in
    fact were, and no kickbacks were paid. OIG concluded there was no evidence of fraud or
    waste.




FCC OIG - Semiannual Report to Congress         33             October 1, 2012 - March 31, 2013
                               OFFICE OF INVESTIGATIONS

   Recovery of Auction-Related Licensing Fees

   An engineering consultant to media licensees complained to OIG that the Commission (the
   Media Bureau) was discriminating against some of the consultant’s clients by requiring them
   to pay auction-related licensing fees, while returning such fees to other similarly situated
   auction winners/ licensees. The OI investigation found there was in fact inconsistent
   assessment of fees on media licenses. However, during this reporting period, the Media
   Bureau, with input of the FCC’s Office of General Counsel, began the process to end the
   inconsistencies. In light of the Media Bureau’s corrective efforts, OI closed its investigation.

   Senior Level FCC Employee Misuse of Leave

   OI concluded an investigation into a former senior level employee who allegedly misused
   advanced sick leave, annual leave, and Family Medical Leave (“FMLA”) to pursue outside
   employment while at the FCC. The investigation revealed that the former employee had
   used a total of 236 hours of advanced sick leave, including FMLA leave, before leaving the
   Commission and had engaged in outside employment while at the Commission. The OI
   investigation revealed that the employee’s outside employment had been appropriately
   disclosed and approved. While it appeared the employee and some Bureau personnel may
   have stretched the boundaries of leave available under the FMLA, OI determined that all
   leave advanced prior to the employee’s leaving was reimbursed in full and the matter was
   closed.




FCC OIG - Semiannual Report to Congress          34              October 1, 2012 - March 31, 2013
                              OFFICE OF INVESTIGATIONS

      Office of Inspector General Hotline

    OIG maintains a Hotline to facilitate the reporting of allegations of fraud, waste, abuse,
    mismanagement or misconduct in FCC programs or operations. Commission employees
    and concerned citizens may report such allegations to the Hotline at (202) 418-0473 or toll
    free at (888) 863-2244 or by e-mail at hotline@fcc.gov. OIG’s Hotline is available 24 hours
    a day, seven days a week via a recorded messaging system.

    Consumers who have general questions or issues not related to fraud, waste and abuse,
    should contact the FCC’s Consumer & Governmental Affairs Bureau (“CGB”) at
    www.fcc.gov/cgb, or contact the FCC’s Consumer Center by calling 1-888-CALL-FCC
    (1-888-225-5322) voice or 1-888-TELL-FCC (1-888-835-5322). The CGB develops and
    implements the Commission’s consumer policies, including disability access. The FCC
    Consumer Center accepts public inquiries, informal complaints, and questions regarding
    cable, radio, satellite, telephone, television and wireless services.

    Upon receipt of a specific claim of fraud, waste, abuse, or mismanagement, OIG may take
    any one of the following actions:

          1) Open an OIG investigation or audit;
          2) Refer the matter to FCC management for appropriate review and action; or
          3) Refer the allegation to another Federal agency. For example, complaints about
             fraudulent sweepstakes are referred to FTC, the nation’s consumer protection
             agency.

    During the current reporting period, OIG received:

          1) 752 Hotline contacts. Of these, 21 were referred to OI for possible case openings;
          2) 379 were referred to FCC Consumer Center; and
          3) 352 were referred to other agencies including the FTC.




FCC OIG - Semiannual Report to Congress        35             October 1, 2012 - March 31, 2013
                              REPORTING REQUIREMENTS

    REPORTING REQUIREMENTS

    The following are the Office of Inspector General response to the 12 specific reporting
    requirements set forth in Section 5(a) of the Inspector General Act of 1978, as amended.

    1. A description of significant problems, abuses, and deficiencies relating to the
    administration of programs and operations of such establishment disclosed by such
    activities during the reporting period.

    Please refer to the sections of this report titled “Office of Audits” and “Office of
    Investigations.”

    2. A description of the recommendations for corrective action made by the Office during the
    reporting period with respect to significant problems, abuse, or deficiencies identified
    pursuant to paragraph (1).

    Please refer to the section of this report titled “Office of Audits” and “Office of
    Investigations.”

    3. An identification of each significant recommendation described in previous semiannual
    reports on which corrective action has not yet been completed.

    No significant recommendations remain outstanding.

    4. A summary of matters referred to authorities, and the prosecutions and convictions which
    have resulted.

    Please refer to the section of this report titled “Office of Investigations."

    5. A summary of each report made to the head of the establishment under section (6) (b) (2)
    during the reporting period.

    No report was made to the Chairman of the FCC under section (6) (b) (2) during this
    reporting period.




FCC OIG - Semiannual Report to Congress            36               October 1, 2012 - March 31, 2013
                             REPORTING REQUIREMENTS

    6. A listing, subdivided according to subject matter, of each audit report issued by the Office
    during the reporting period, and for each audit report, where applicable, the total dollar
    value of questioned costs (including a separate category for the dollar value of unsupported
    costs) and the dollar value of recommendations that funds be put to better use.

    Each audit report issued during the reporting period is listed according to subject matter and
    described in the “Office of Audits” section.

    7. A summary of each particularly significant report.

    Each significant audit and investigative report issued during the reporting period is
    summarized within the audits and investigations sections.

    8. Statistical tables showing the total number of audit reports with questioned costs and the
    total dollar value of questioned costs.

    The required statistical table can be found at Table I to this report.

    9. Statistical tables showing the total number of audit reports with recommendations that the
    fund is put to better use and the total dollar value of such recommendations.

    We issued no reports with recommendations that funds be put to better use during the
    reporting period.

    10. A summary of each audit report issued before the commencement of the reporting
    period for which no management decision has been made by the end of the reporting period
    (including the date and title of each such report), an explanation of the reasons why such a
    management decision has not been made, and a statement concerning the desired
    timetable for achieving a management decision on each such report.

    No audit reports fall within this category.

    11. A description and explanation of the reasons for any significant revised management
    decision made during the reporting period.

    No management decisions fall within this category.




FCC OIG - Semiannual Report to Congress           37              October 1, 2012 - March 31, 2013
                             REPORTING REQUIREMENTS

    12. Information concerning any significant management decision with which the Inspector
    General is in disagreement.

    No management decisions fall within this category.

    13. Information described under section 05(b) of the Federal Financial Management
    Improvement Act of 1996.

    No reports with this information have been issued during this reporting period.


                          Table I: OIG Reports With Questioned Costs

     Inspector General Reports                    Number of      Questioned     Unsupported
     With Questioned Costs                        Reports        Costs          Costs

     A. For which no management decision
     has been made by the commencement                   _             _              _
     of the reporting period.

     B. Which were issued during the
     reporting period?                                   1         $292,444           _

     C. For which a management decision                  _             _              _
     was made during the reporting period.
     (i) Dollar value of disallowed costs.               _             _              _

     (ii) Dollar value of costs not disallowed.          _             _              _

     D. For which no management decision                                              _
     has been made by the end of the report-             1         $292,444
     ing period.

     E. For which no management decision                 _             _              _
     was made within six months of issuance.




FCC OIG - Semiannual Report to Congress           38            October 1, 2012 - March 31, 2013
                                       APPENDIX

  As required by Public Law 111-203, we are pleased to report that the OIG of the Equal
  Employment Opportunity Commission conducted a peer review of this office on August 3,
  2010. Its review disclosed no recommendations for any corrective actions. The peer review
  report concluded the system of quality control for the FCC OIG provides reasonable
  assurance of performing and reporting audits in conformity with applicable professional
  standards in all material respects and FCC OIG has received a peer review rating of pass.




FCC OIG - Semiannual Report to Congress       39             October 1, 2012 - March 31, 2013
                    Office of Inspector General
               Federal Communications Commission
                445 12th Street S.W. Room 2-C-762
                      Washington, DC 20554
                       WWW. FCC.GOV/OIG




                    Report fraud, waste or abuse to:

                                    Email
                              Hotline@FCC.gov

                                  Call Hotline
                                  202-418-0470
                                  888-863-2244




FCC OIG - Semiannual Report to Congress   40     October 1, 2012 - March 31, 2013
